                   More Management Attention Is Needed
                         to Protect Critical Assets

                                      July 2005

                        Reference Number: 2005-20-108




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       July 15, 2005


      MEMORANDUM FOR CHIEF, MISSION ASSURANCE AND SECURITY SERVICES



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - More Management Attention Is Needed to
                                    Protect Critical Assets (Audit # 200520001)

      This report presents the results of our review to determine whether the Internal Revenue
      Service (IRS) was making adequate progress in protecting its critical infrastructure and
      complying with Federal Government requirements. The audit focused on the processes
      and methodologies the IRS used to document and report on the status of its critical
      infrastructure protection.
      In summary, Homeland Security Presidential Directive/HSPD-7, Critical Infrastructure
      Identification, Prioritization, and Protection dated December 17, 2003, established a
      national policy for Federal agencies to protect the United States’ critical infrastructure
      and key resources1 from terrorist attacks. The IRS relies upon critical computer
      systems to account for over $2 trillion in revenue annually.2 The importance of these
      systems to our national security could make them a terrorist target.
      HSPD-7 required all Federal agencies to develop plans to protect their critical
      infrastructure by July 31, 2004. The IRS timely provided the Department of the
      Treasury a list of 19 critical assets that had been identified in the latter part of 1998 in
      response to The Policy on Critical Infrastructure Protection: Presidential Decision
      Directive (PDD-63), dated May 1998. The Department of the Treasury also required all
      bureaus to update their list of critical infrastructure by September 2005. The IRS is still
      in the process of performing the analysis necessary to identify its critical assets and
      expects to have it completed by the Department of the Treasury’s deadline.


      1
        Critical infrastructure are systems and assets, whether physical or virtual, so vital to the United States that the
      incapacity or destruction of such systems or assets would have a debilitating affect on national security, national
      economic security, national public health or safety, or any combination of these matters. Key resources are publicly
      or privately controlled resources essential to the minimal operations of the economy or government.
      2
        Financial Audit: IRS’s Fiscal Years 2004 and 2003 Financial Statements (GAO-05-103, dated November 2004).
                                             2

Although the IRS expects to meet the goals established by the Department of the
Treasury, sufficient attention has not been given to keeping the list of critical assets
current. The IRS does not have a process to regularly review its inventory of critical
assets to ensure it remains current and complete. To respond to the Department of the
Treasury mandate, the IRS had to begin the current identification process by analyzing
its complete inventory of assets rather than just adjusting it for recent year changes.
The lack of a current listing increases the risks that critical assets may not be protected.
We also believe the IRS could have reacted more promptly to HSPD-7. The Directive
allowed 7 months for agencies to develop and submit plans to the Office of
Management and Budget that addressed the identification, prioritization, and protection
of their critical assets. Based on the current schedule, the IRS will require 21 months
just to finish the analysis necessary to complete an updated list of critical assets.
Sufficient Mission Assurance and Security Services (MA&SS) organization resources
have not been devoted to ensuring a proactive response in implementing HSPD-7. In
addition, business unit owners who are most familiar with the criticality of their systems
have not been involved yet in this process.
After its critical assets are identified, the IRS will need to adequately assess those
assets for vulnerabilities, and then develop and implement plans to protect them. Since
a new list of critical assets had not been completed yet, we reviewed the IRS’ progress
in securing 17 potential critical assets identified by its ongoing analysis. These assets
are vital to the IRS’ returns processing, law enforcement, and customer service
responsibilities. Operational and technical controls for these systems have not been
adequately tested and prioritized. In addition, plans for correcting the weaknesses that
had been identified are not adequate. We believe business unit owners have been slow
to accept responsibility for the security of their systems, and they have not devoted
sufficient attention to testing and correcting security weaknesses, even for critical
assets.
To ensure the IRS maintains a current and complete list of critical infrastructure assets,
we recommended the Chief, MA&SS, coordinate with all business units at least annually
to confirm the IRS’ list of critical assets is accurate and complete. More emphasis
should also be placed on completing the IRS’ current efforts to identify its critical assets.
Since we have previously reported deficiencies in how the IRS tested systems for
vulnerabilities and how it developed corrective action plans to reduce known
vulnerabilities, we are making no additional recommendations in these areas.
Management’s Response: The Chief, MA&SS, concurred with our recommendations
and will ensure a written survey is developed and distributed to all IRS business units
possessing one or more critical assets. The results of the survey will be compiled and
approved by IRS executives and will represent an updated list of critical assets. Also,
the Chief, MA&SS, will coordinate with all business units, at least annually, to confirm
the IRS’ list of critical assets is accurate and complete. A specific timetable for this
coordination is included in the response. Management’s complete response to the draft
report is included as Appendix IV.
                                           3

Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs), at (202) 622-8510.
                                     More Management Attention Is Needed
                                           to Protect Critical Assets




                                                  Table of Contents


Background ............................................................................................... Page 1
The List of Critical Assets Is Not Current................................................... Page 2
         Recommendation 1: .........................................................................Page 3
         Recommendation 2: .........................................................................Page 4

Critical Assets Are Not Adequately Assessed for Vulnerabilities
and Prioritized ........................................................................................... Page 4
Plans to Protect Critical Assets Are Not Complete .................................... Page 6
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 8
Appendix II – Major Contributors to This Report ....................................... Page 9
Appendix III – Report Distribution List ....................................................... Page 10
Appendix IV – Management’s Response to the Draft Report .................... Page 11
             More Management Attention Is Needed
                   to Protect Critical Assets

                     On December 17, 2003, the President signed Homeland
Background
                     Security Presidential Directive/HSPD-7, Critical
                     Infrastructure Identification, Prioritization, and Protection.
                     HSPD-7 established a national policy for Federal
                     Government agencies to protect the United States’ critical
                     infrastructure and key resources1 from terrorist attacks.
                     While an estimated 85 percent of the United States’ critical
                     infrastructure and key resources are owned and operated by
                     the private sector,2 the Federal Government also owns and
                     operates critical infrastructure and key resources. The
                     Internal Revenue Service (IRS), for example, relies upon
                     computer systems to account for over $2 trillion in revenue
                     annually.3 Terrorists could attack these computer systems to
                     gain access to taxpayers’ sensitive financial information or
                     to disrupt computer operations.
                     Under HSPD-7, all Federal agency heads are responsible
                     for:
                         •    Identifying the agency’s critical infrastructure.
                         •    Assessing and prioritizing critical infrastructure
                              based on vulnerabilities and risks.
                         •    Developing and implementing plans to protect
                              critical infrastructure and using metrics to measure
                              and communicate program effectiveness.
                     We conducted this review to evaluate the IRS’ progress in
                     addressing these responsibilities. The review was
                     performed at the Mission Assurance and Security Services
                     (MA&SS) offices in New Carrollton, Maryland, and the
                     Enterprise Resilience and Critical Infrastructure Protection
                     Program Office in New York, New York, during the period

                     1
                       Critical infrastructure are systems and assets, whether physical or
                     virtual, so vital to the United States that the incapacity or destruction of
                     such systems or assets would have a debilitating affect on national
                     security, national economic security, national public health or safety, or
                     any combination of these matters. Key resources are publicly or
                     privately controlled resources essential to the minimal operations of the
                     economy and government.
                     2
                       Guidance for Developing Sector-Specific Plans, Department of
                     Homeland Security, dated April 2, 2004.
                     3
                       Financial Audit: IRS’s Fiscal Years 2004 and 2003 Financial
                     Statements (GAO-05-103, dated November 2004).
                                                                                         Page 1
                            More Management Attention Is Needed
                                  to Protect Critical Assets

                                    November 2004 through January 2005. The audit was
                                    conducted in accordance with Government Auditing
                                    Standards. Detailed information on our audit objective,
                                    scope, and methodology is presented in Appendix I. Major
                                    contributors to the report are listed in Appendix II.
                                    The Policy on Critical Infrastructure Protection:
The List of Critical Assets Is
                                    Presidential Decision Directive (PDD-63), dated May 1998,
Not Current
                                    directed Federal agencies to implement plans for protecting
                                    Federally owned critical infrastructure by May 2000. In
                                    response to PDD-63, the IRS identified 19 critical assets in
                                    November 1998.
                                    HSPD-7 superseded PDD-63 and required the heads of all
                                    Federal agencies to submit to the Director, Office of
                                    Management and Budget (OMB), by July 31, 2004, plans
                                    for protecting their physical and cyber critical infrastructure.
                                    The Department of the Treasury is also requiring all bureaus
                                    to identify a more current set of critical assets using a tool
                                    developed by the Department of Commerce called Project
                                    Matrix. The IRS expects to complete its analyses and have
                                    a new list of critical assets by September 2005.
                                    To update the November 1998 list of 19 critical assets, the
                                    IRS began with a universe of about 350 computer systems
                                    and 730 buildings. Next, using criteria provided by the
                                    Department of the Treasury, it identified 96 assets that were
                                    considered potential critical assets and, in March 2005,
                                    refined the list to 17 (14 systems and 3 buildings). Plans
                                    call for detailed questionnaires to be completed by the
                                    business unit owners of each of the 14 systems and
                                    reviewed by the Department of the Treasury and the IRS’
                                    MA&SS organization.
                                    All 17 assets are vital to the IRS’ returns processing, law
                                    enforcement, and customer service responsibilities. The
                                    17 assets were previously included in the original list of
                                    critical assets identified in the list issued in
                                    November 1998.4
                                    Although the IRS expects to meet the goals established by
                                    the Department of the Treasury, sufficient emphasis has not
                                    been given to maintaining a current list of critical assets.

                                    4
                                        Two telecommunications assets were no longer considered critical.
                                                                                                     Page 2
More Management Attention Is Needed
      to Protect Critical Assets

        The MA&SS organization did not have a process to
        regularly review its inventory of critical assets to ensure it
        remained current and complete. As a result, the IRS had to
        begin the current identification process by analyzing its
        complete inventory of assets rather than just adjusting it for
        recent year changes. The lack of a current listing increased
        the risks that critical assets may not be protected.
        We also believe the IRS could have reacted more promptly
        to HSPD-7. The Directive allowed 7 months for agencies to
        develop and submit plans to the OMB to address the
        identification, prioritization, and protection of their critical
        assets. Based on the current schedule, the IRS will require
        21 months just to finish the analysis necessary to complete
        an updated list of critical assets.
        MA&SS organization management was not devoting
        sufficient resources to ensuring a proactive response in
        implementing HSPD-7. Initially, only 1 person from the
        MA&SS organization was assigned to evaluate the
        350 systems to derive the 96 potential critical systems.
        Two MA&SS and 1 Department of the Treasury critical
        infrastructure protection program staff members worked to
        reduce the 96 systems to 17. In addition, business unit
        owners who are in the best position to determine the
        criticality of their systems were not scheduled to be
        involved until the end of the identification process. As of
        April 2005, questionnaires had not been issued yet to the
        business owners of these systems.
        Identifying and maintaining a list of critical assets is the first
        step required in critical infrastructure protection planning.
        Until the IRS fully identifies its critical infrastructure and
        undertakes regular, repeated reviews of the list to keep it
        current, the IRS may not be able to ensure its critical
        infrastructure is adequately secured.

        Recommendations

        The Chief, MA&SS, should:
        1. Coordinate with all business units to complete the
           process of identifying a current list of critical assets to
           comply with HSPD-7 and ensure the protection of those
           assets.
                                                                  Page 3
                             More Management Attention Is Needed
                                   to Protect Critical Assets

                                     Management’s Response: The Chief, MA&SS, will ensure
                                     a written survey is developed and distributed for completion
                                     by all IRS business units possessing critical assets. The
                                     survey results will be compiled, approved by IRS
                                     executives, and will represent an updated list of critical
                                     assets.
                                     2. Coordinate with all business units at least annually to
                                        confirm the IRS’ list of critical assets is accurate and
                                        complete.
                                     Management’s Response: The Chief, MA&SS, will
                                     coordinate with all business units, at least annually, to
                                     confirm the IRS’ list of critical assets is accurate and
                                     complete. The process will include issuing a memorandum
                                     by August 15 of each year asking the business units to
                                     complete the previously mentioned survey by September 15.
                                     The results will be presented to the Chief, MA&SS, for
                                     approval no later than October 15, and submitted to the
                                     Deputy Commissioner for Operations Support for final
                                     approval. This process will be repeated annually.
                                     After the IRS identifies its critical assets, it will need to
Critical Assets Are Not
                                     adequately assess those assets for vulnerabilities. Federal
Adequately Assessed for
                                     Government requirements for assessing both critical and
Vulnerabilities and Prioritized
                                     noncritical computer systems for vulnerabilities existed for
                                     many years prior to HSPD-7. OMB Circular
                                     No. A-130, Security of Federal Automated Information
                                     Resources, originally issued in 1985, requires agencies to
                                     secure their computer systems. Under the Federal
                                     Information Security Management Act of 2002 (FISMA)5
                                     and its predecessor, the Government Information Security
                                     Reform Act of 2000,6 agencies are required to identify and
                                     provide information security protections commensurate with
                                     the risk and magnitude of the harm resulting from the
                                     unauthorized access, use, disclosure, disruption,
                                     modification, or destruction of information.
                                     When security weaknesses are identified, the Department of
                                     the Treasury and the OMB require the vulnerabilities and

                                     5
                                       The FISMA is part of the E-Government Act of 2002,
                                     Pub. L. No. 107-347, Title III, Section 301, 2002.
                                     6
                                       National Defense Authorization, Fiscal Year 2001, § 1061,
                                     Pub L. No. 106-398 (2000), 114 Stat. 1654.
                                                                                                   Page 4
More Management Attention Is Needed
      to Protect Critical Assets

        related corrective actions to be documented and tracked in
        Plans of Action and Milestones (POA&Ms). We reviewed
        the POA&Ms and other information to determine the status
        of security controls for the IRS’ latest list of 17 potential
        critical assets.
        According to those documents, the 17 potential critical
        assets were not adequately secured, making them
        unnecessarily vulnerable to attack. At the time of our
        review, the IRS reported the following vulnerabilities:
            •   Two critical computer systems did not have
                completed certifications.
            •   Three critical computer systems were not
                accredited.7
            •   Two critical computer systems did not have security
                plans.
            •   Two critical computer systems did not have
                contingency plans.8
            •   Seven critical computer systems did not have tested
                contingency plans.
            •   Physical security compliance reviews had not been
                completed at 2 of the 3 Computing Centers9 within
                the last 2 years. A physical vulnerability assessment
                was not performed for the third Computing Center
                location.
        In addition, the 14 potentially critical computer systems
        were not adequately reviewed for operational and technical
        security controls. Operational controls are primarily
        implemented and executed by people (as opposed to
        systems) and include, for example, personnel security and

        7
          Accreditation is the official management decision to authorize the
        operation of a system, accepting the risk to operations based on the
        implementation of an agreed upon set of security controls.
        8
          Contingency planning is a requirement for all general support systems
        and major applications. Compliance with HSPD-7 requires critical
        assets to have Business Continuity Plans, which include a suite of four
        plans: Incident Management Plan, Occupant Emergency Plan, Business
        Resumption Plan, and Information Technology Disaster Recovery Plan.
        9
          Facilities that support tax processing and information management
        through a data processing and telecommunications infrastructure.
                                                                       Page 5
                            More Management Attention Is Needed
                                  to Protect Critical Assets

                                    security awareness, training, and education. Technical
                                    controls are executed by computer systems and include, for
                                    example, logical access controls and audit trails. Without
                                    adequate testing, the IRS cannot determine whether security
                                    policies and procedures had been implemented effectively.
                                    The FISMA requires that, at least annually, agency program
                                    officials (business unit owners) review the security controls
                                    of the systems they use to carry out their responsibilities.
                                    OMB guidance states the evaluations should be based on the
                                    testing of management, operational, and technical controls
                                    to determine whether policies and procedures had been
                                    developed and implemented.
                                    Testing and prioritizing critical assets for vulnerabilities was
                                    not adequate because business unit owners had not taken
                                    responsibility for the security of their systems. Critical
                                    assets, in particular, had not received adequate attention
                                    from IRS management.
                                    Because we have reported this condition in a recent
                                    Treasury Inspector General for Tax Administration
                                    (TIGTA) memorandum10 to the Chief, MA&SS, regarding
                                    the IRS’ compliance with the FISMA, we are making no
                                    additional recommendations.

Plans to Protect Critical Assets    After vulnerabilities of critical assets have been identified,
Are Not Complete                    HSPD-7 requires plans be developed for correcting
                                    vulnerabilities. Even before HSPD-7, Federal laws and
                                    guidance required plans be developed and implemented to
                                    reduce security weaknesses.
                                    In a prior review,11 we reported that POA&Ms for both
                                    critical and noncritical systems are of limited value because
                                    they are based on the inadequate vulnerability assessments
                                    we described earlier. Implementing the corrective actions in
                                    a POA&M may not necessarily mean a system has been
                                    secured if all vulnerabilities were not identified and entered
                                    into the POA&M.



                                    10
                                     Memorandum dated September 10, 2004.
                                    11
                                     The Method of Tracking Corrective Actions for Known Security
                                    Weaknesses Has Not Been Adequately Developed (Reference
                                    Number 2005-20-027, dated January 2005).
                                                                                                Page 6
More Management Attention Is Needed
      to Protect Critical Assets

        In addition, we reported that both critical and noncritical
        computer systems had nearly identical milestone dates for
        the correction of all listed weaknesses. The corrective
        actions for all of the applications were identical: (1) assign
        accountable personnel, (2) perform gap analysis, (3) design
        and test process, and (4) implement solution.
        Without an effective POA&M process, the IRS cannot
        adequately prioritize security deficiencies to ensure
        significant weaknesses of critical assets are timely addressed
        and resolved.
        Since our original reporting of problems with the POA&Ms,
        the IRS has made a significant effort to improve them and is
        in the process of correcting other problems we raised with
        the POA&Ms. As part of our Fiscal Year 2005 FISMA
        evaluation, we will be assessing the adequacy of IRS
        management’s ongoing effort to improve the POA&M
        process. Because we have reported these conditions and
        made recommendations in prior TIGTA audit reports, we
        are making no additional recommendations.




                                                                Page 7
                            More Management Attention Is Needed
                                  to Protect Critical Assets

                                                                                       Appendix I


                       Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) was making adequate progress in protecting critical infrastructure and complying with
Federal Government requirements. To accomplish our objective, we:
I.     Obtained the necessary background information on protecting critical assets.
       A. Identified and reviewed critical infrastructure protection requirements set forth by the
          various requirement setting authorities.
       B. Obtained and reviewed the Critical Infrastructure Protection Plan the IRS submitted
          to the Department of the Treasury for inclusion in the Departmental Critical
          Infrastructure Protection Plan submitted to the Office of Management and
          Budget (OMB).
       C. Contacted appropriate personnel in the Department of the Treasury to obtain the
          instructions and guidelines issued to the bureaus.
II.    Evaluated the IRS’ efforts to identify its critical infrastructure.
       A. Determined the instructions, criteria, and due dates issued by the Department of
          Homeland Security, the OMB, and the Department of the Treasury for determining
          which infrastructures were critical.
       B. Obtained and reviewed the list of IRS critical infrastructure assets.
       C. Evaluated the process and criteria the IRS used to identify its critical assets.
III.   Determined whether the IRS’ critical assets were assessed for vulnerabilities and whether
       corrective actions had been taken to reduce those vulnerabilities.
       A. Determined whether testing was performed by the Modernization and Information
          Technology Services organization, the Mission Assurance and Security Services
          organization, or the business units.
       B. Determined whether the IRS used certification and accreditation results and, if so,
          whether the certification and accreditation was conducted within the last 12 months.
       C. Determined whether the IRS conducted annual reviews to identify and assess
          vulnerabilities.
       D. Reviewed Plans of Action and Milestones to determine whether vulnerabilities had
          been identified and corrective actions and milestones had been developed to reduce
          the vulnerabilities.


                                                                                             Page 8
                         More Management Attention Is Needed
                               to Protect Critical Assets

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen Mullins, Director
Gerald Horn, Audit Manager
Richard Borst, Lead Auditor
Allen Gray, Senior Auditor
Jody Kitazono, Senior Auditor
Charles Ekholm, Auditor




                                                                                         Page 9
                         More Management Attention Is Needed
                               to Protect Critical Assets

                                                                 Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Service and Enforcement SE
Chief Information Officer OS:CIO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief Information Officer OS:CIO
       Chief, Mission Assurance and Security Services OS:MA




                                                                      Page 10
   More Management Attention Is Needed
         to Protect Critical Assets

                                            Appendix IV


Management’s Response to the Draft Report




                                                 Page 11
More Management Attention Is Needed
      to Protect Critical Assets




                                      Page 12
More Management Attention Is Needed
      to Protect Critical Assets




                                      Page 13
